C:\igwnew\fbicfi\fbicfi1.htm
USDOJ/OIG Special Report
The Handling of FBI Intelligence Information
Related to the Justice Departments
Campaign Finance Investigation (July, 1999)
Unclassified Executive Summary
Background of the OIG InvestigationDuring the summer of 1996, the
news media began reporting stories focusing on allegations of improper fundraising
practices during the 1996 Presidential campaign. Among these reports were claims that the
Democratic National Committee (DNC) had received large campaign contributions from foreign
sources in violation of federal campaign finance laws. These reports prompted members of
Congress to ask Attorney General Reno to authorize an independent counsel investigation
into such claims.
After concluding that there was insufficient evidence to warrant the appointment of an
independent counsel, Attorney General Reno created the Campaign Finance Task Force (the
Task Force) in late 1996 to further investigate such allegations of campaign finance
violations. In the meantime, Congress launched two separate investigations into
questionable fundraising practices during the 1996 Presidential election: one by the
Senate Governmental Affairs Committee (SGA) and the other by the House Government Reform
and Oversight Committee (HGRO).
Since 1996, the FBIs National Security Division (NSD) had been conducting an
intelligence investigation into certain allegations involving the Peoples Republic
of China (PRC). Initial intelligence reporting indicated that the PRC had mounted a plan
during 1995 to influence U.S. politics by targeting Congress. In early 1997, the FBI began
providing SGA staff with limited briefings about the plan. In July 1997, SGA Chairman Fred
Thompson opened public hearings on the committees investigation into campaign
finance violations by claiming that the PRC had embarked upon a plan to influence the U.S.
political process and that there was evidence that the PRC plan had affected the 1996
Presidential election. Senator Thompsons claim was challenged by some members of the
committee and disavowed by the Department of Justice (Department).
On September 10, 1997, the Department, the National Security Agency (NSA), and the
Central Intelligence Agency (CIA) conducted a joint briefing for the Senate Select
Committee on Intelligence (SSCI) concerning the PRCs efforts to influence U.S.
politics. During that briefing, the CIA presented testimony about two pieces of
intelligence information related to the PRC that it had received from the FBI.1 The FBI had obtained this information as part of its
aforementioned intelligence investigation and had disseminated it to the intelligence
community. However, the FBI had not previously provided the two pieces of information to
Congress.
Senator Thompson, who attended part of the September 10 SSCI briefing, directed the
representatives who appeared before SSCI to appear before him the following day. Senator
Thompson wanted to know why the FBI had not previously provided this information to his
committee, particularly because members of SGA had posed several questions specifically
about the subject matter of this information during an earlier briefing. On September 11,
Director Freeh explained to Senator Thompson that although the information had been
collected by the FBI, he had been unaware of the information until the CIA included it in
its testimony for SSCI.
In the wake of the September 10 and 11 briefings, the FBI launched an internal review
of NSDs files to ascertain why NSD had not disseminated the information to senior
FBI officials. In late September 1997, the FBI also briefed SGA, HGRO, and both the House
and Senate intelligence committees on the two pieces of FBI information that had been
given to SSCI and SGA by the CIA at the September 10 and 11 briefings.
During the FBIs internal file review, the FBI found eight additional pieces of
intelligence information from NSD intelligence investigations that the FBI considered
potentially relevant to the congressional and Task Force investigations and that it
concluded had not been properly disseminated. The Department provided these newly
discovered pieces of information to the Task Force, SGA, HGRO, SSCI, the House Permanent
Select Committee on Intelligence (HPSCI), and the National Security Council (NSC) in
November 1997.
In late November 1997, the Attorney General asked the Office of the Inspector General
(OIG) to conduct a review to determine how these problems relating to the proper
dissemination of potentially significant intelligence information arose and how they could
be prevented in the future. The Attorney General requested that the OIG review practices
for the dissemination of intelligence information related to the Task Force investigation
within the FBI, from the FBI to Main Justice, within Main Justice, and from the FBI to the
Task Force. In addition to intra-Departmental dissemination of this intelligence
information, the OIG also was asked to review the dissemination of intelligence
information related to other agencies and entities. Specifically, we reviewed
dissemination practices between the Department and SGA, HGRO, the intelligence committees,
and the NSC. The OIGs investigation focused on 10 pieces of intelligence information
that had been identified by senior Department officials as important information that was
not properly disseminated: the two pieces of FBI information that were briefed to Congress
in September 1997 by the CIA and the eight pieces of information uncovered during the
FBIs September 1997 file review.
The OIGs inquiry was conducted using a combination of interviews and document
reviews. In all, the OIG conducted 123 interviews of 73 witnesses. These witnesses were
personnel from Main Justice (i.e., from the Attorney Generals office, Deputy
Attorney Generals office, Criminal Division, Office of Intelligence Policy and
Review (OIPR), and Executive Office for National Security), FBI (i.e., from the
Directors office, Deputy Directors office, NSD, Information Resources
Division, Office of Public and Congressional Affairs, and several field offices), the Task
Force, U.S. Attorneys Offices, the CIA, and several congressional committees. We
also reviewed more than 18,000 pages of information, almost all of which was classified.
The documents were obtained from various components of the Department and from
intelligence agencies and congressional committees.
Before being finalized, the classified version of the report was issued for review and
comment to the Attorney Generals Office, the Deputy Attorney Generals Office,
the FBI Directors Office, the National Security Division, the Task Force, the
Criminal Division, the Office of Intelligence and Policy Review, and certain intelligence
agencies. Individuals mentioned prominently in the report also had the opportunity to
review and comment upon it before it was completed. On July 12, 1999, we finalized the
576-page classified report. That report, which was classified at the TOP SECRET/CODEWORD
level, was provided to the Attorney General, the Director of the FBI, and FBIs
National Security Division, and certain congressional committees. This is an abbreviated,
unclassified summary describing the main findings of the classified report.
Summary of FindingsWe found that many of the pieces of information that were
identified by senior Department officials as important, undisseminated material had in
fact been disseminated to varying degrees within the Department during the previous two
years. Of the 10 pieces of ostensibly undisseminated intelligence information that were
the focus of the OIG investigation, the Attorney General had access to seven and parts of
two others and Director Freeh had access to five and part of another prior to the
re-discovery of that information in late 1997.
However, although many of these pieces of intelligence information were made available
to the Attorney General, Director Freeh, or senior Department officials, many of them were
supplied in a fashion that belied their significance. That is, they were not actually
briefed  either orally or in writing  to the Attorney General, Director Freeh,
or their senior staffs. Rather, they were contained in routine documents related to the
Departments use of the Foreign Intelligence Surveillance Act (FISA), serendipitously
included in memoranda on other subjects, or buried amid documents that were made available
to the Attorney General, Director Freeh, or their staffs. These were ineffective methods
of communicating important intelligence information to senior Department officials.
Indeed, this explains why some officials were unaware that they had received these pieces
of information before.
We concluded that none of the FBIs problems disseminating and reporting
classified information concerning the intelligence and Task Force investigations was
attributable to intentional malfeasance or purposeful obstruction of the Task Force
investigation. Further, none was the product of an improper intent to conceal information
or prevent it from being disclosed to parties in the Department, Congress, or the NSC.
Rather, many of the problems we found were attributable to poor judgment on the part of
NSD personnel; well-intentioned misapplication of Departmental policy; attempts by
individuals in NSD to protect the divisions narrow interests without sufficient
regard for the impact of their actions upon the Task Force investigation; legitimate
Departmental policy disputes about disseminating criminal and intelligence information;
problems in the use and maintenance of the FBIs computer database systems; and/or
poor communication between members of the Task Force and NSD and among the various parties
within the Department who were involved in the Task Force investigation. The unprecedented
nature of the parallel intelligence and Task Force investigations also contributed to
complications in the handling of classified information.
Facts
The PRC Intelligence InvestigationMost of the 10 pieces of
information that the FBI re-discovered after the September 1997 hearings were collected by
the FBI prior to or during the FBIs PRC intelligence investigation that was begun in
1996 after several FBI field offices began receiving intelligence information suggesting
that the PRC had embarked on a broad-based plan to influence U.S. politics. The
information being collected by various field offices concerning the PRC plan culminated in
1996 in a decision by NSD to open and supervise an overarching intelligence investigation
at FBI Headquarters (FBI HQ) that would administer the ongoing investigations being
conducted by the field offices. In the meantime, NSD received provocative reports from an
FBI field office concerning alleged ties that a subject of the FBIs intelligence
investigation had to the PRC government and to various U.S. political leaders. Some of
this information was contained in documents generated by the FBI and OIPR to which the
Attorney General and Director Freeh had access.
Convergence of the Intelligence Investigation and the Campaign Finance Task Force
InvestigationIn December 1996, an FBI field office reported information concerning
an individual who would later become a subject of the Task Forces investigation.
That information would later be identified as one of the 10 pieces of undisseminated
information that were the focus of the OIG investigation. When this piece of information
was received by NSD, it was shared with the FBIs National Security Law Unit (NSLU)
for advice on handling. In early January 1997, NSLU gave a copy of the teletype containing
the report to a Main Justice official who often handled intelligence matters. That same
official also supervised the Task Force, which had recently been formed to investigate
allegations of campaign finance violations. The Main Justice official discussed the
information with other Main Justice officials, including the Attorney General, and
arranged for the Task Force to receive a briefing on the FBIs intelligence
investigation. On January 10 and 13, 1997, NSD conducted briefings on the intelligence
investigation for the Task Force and senior FBI and Main Justice officials.
Director Freeh closely followed the Task Force investigation. Accordingly, although he
did not attend the January 1997 briefings NSD conducted, he was informed in a January 30,
1997 memorandum about intelligence information that related to the Task Force
investigation. Director Freeh received his first briefing on the intelligence
investigation on February 5, 1997.
The Task Forces Access to NSDs Intelligence MaterialNSD began
providing certain intelligence information to the Task Force after concluding that such
information might be of lead value to the criminal investigation. However, NSD had
concerns about the Task Forces access to its intelligence information because of
Departmental policies that restricted the sharing of intelligence information with
criminal investigators and because of concerns that its sensitive sources and methods
might be compromised if the Task Force gained access to NSDs intelligence.
Consequently, NSD devised a process for providing the Task Force with intelligence
information that would limit the amount of raw intelligence the Task Force would review or
receive. This process involved furnishing the Task Force with paraphrased versions of
intelligence information NSD was receiving from its intelligence investigation. These
excerpts were contained in documents called letterhead memoranda or
LHMs.
The process of creating LHMs for the Task Force was a time-consuming effort for NSD
that required the assistance of agents from outside the unit and even from the field
offices. Agents were brought to FBI HQ for one-month assignments to assist in the
LHM-drafting process. The Task Force received its first batch of LHMs in mid-January 1997.
The Attorney Generals office also arranged to receive copies of the LHMs that NSD
produced for the Task Force.
On February 14, 1997, NSD transmitted a teletype to all FBI field offices requesting
that information received since 1995 on efforts by several foreign governments to target
or influence U.S. political officials or political campaigns be transmitted to NSD. Most
of the field office responses were received by February 19, and on February 22, 1997, NSD
delivered to the Attorney General a copy of the packet of teletypes received in response
to the February 14 field office canvass. The Attorney General gave the packet of teletypes
to then-Deputy Attorney General (DAG) Jamie Gorelick. OIPR reviewed the packet of
teletypes for DAG Gorelick and drafted a memorandum on February 27, 1997, summarizing
noteworthy information contained in the packet. OIPR then gave the packet to the Task
Force. However, NSD retrieved the packet shortly after the Task Force received it, because
NSD had not understood that anyone other than the Attorney General and DAG would have
access to it. The packet was never returned to the Task Force, and the Task Force would
not again have unfettered access to that information until late 1997.
While NSD was committed to using the adapted LHM system to furnish the Task Force with
intelligence information, attorneys on the Task Force had misgivings about the process.
Task Force attorneys believed it was important to review the raw information underlying
the LHMs rather than relying solely on paraphrased documents prepared by NSD personnel who
had no connection to the Task Force. Consequently, the Task Force attempted to gain access
to the material underlying the LHMs. However, NSD officials resisted the Task Forces
efforts to review the raw intelligence material. This prompted a series of discussions
between Main Justice and the FBI in an attempt to resolve the dispute over the Task
Forces access to NSDs raw intelligence. Although the issue was raised at a
series of meetings, it was never resolved, even after senior FBI officials had stated that
the Task Force would receive the material that it sought. All of the issues concerning the
Task Forces access were not resolved until mid-September 1997, when the Attorney
General directed, in the aftermath of the September 10 and 11 congressional briefings,
that the Task Force obtain access to all relevant intelligence information.
NSC and the PRC Intelligence InvestigationIn February 1997, White House
Counsel Charles F.C. Ruff contacted the Department twice seeking information regarding PRC
involvement in attempts to affect U.S. policy. Ruffs request related to Secretary of
State Madeleine Albrights plans for an official visit to China that month.
The Departments first response to Ruffs request merely reiterated
information that the FBI had supplied to the NSC in a June 1996 briefing about the
PRCs plan to influence Congress. After Ruffs second inquiry, the FBI and Main
Justice conferred over the appropriate amount of information to provide in response. Some
officials advocated providing only a limited response because they believed that providing
investigative information to the White House about the PRC and campaign fundraising
violations was akin to briefing the subject of an investigation about that investigation.
Ultimately, the White House Counsel only received copies of teletypes concerning the PRC
plan to influence Congress that had previously been transmitted to the White House.
Both the FBI and Main Justice sought to ensure that information that might undermine
the criminal investigation was not disseminated to the White House. However, there were
disagreements over the implementation of this policy. Some senior FBI officials expressed
objections to briefing the NSC about information potentially related to the criminal
investigation but derived from the intelligence investigation. In contrast, senior Main
Justice officials believed more broadly that intelligence information bearing on national
security should be given to the NSC. In the aftermath of this disagreement, the FBI chose
not to attend NSC briefings on the intelligence investigation, although the FBI continued
to review the content of any such briefings.
Following the White House Counsels request for information, DAG Gorelick directed
OIPR and the FBIs Office of Professional Responsibility (OPR) to review the
FBIs intelligence material to examine, inter alia, whether the FBI had
disseminated salient information about the PRC plan to Main Justice, NSC, and the
intelligence community. Their report (the OIPR/OPR Report), which was finalized in May
1997, after DAG Gorelick had left the Department, found that there were shortcomings in
the FBIs dissemination practices. The report, which included a brief summary of
noteworthy information from the intelligence investigation, was given to senior FBI and
Main Justice officials, including the Attorney General and Director Freeh. The report
contained some of the intelligence information that would later be considered
undisseminated.
Congress and the Intelligence InvestigationThe Department usually provides
intelligence information to Congress through the congressional intelligence committees and
relies upon those committees to make information available to other committees as
necessary. In the context of the briefings related to the PRC intelligence investigation,
the Department deviated from this policy. The Department instead briefed SGA, HGRO, SSCI,
and HPSCI directly. Although the committees were briefed at different intervals,
Department officials claim that they attempted to provide each of the committees with the
same information.
While the House and Senate intelligence committees were briefed with comparable
regularity, HGRO received fewer briefings than the intelligence committees and SGA
received more. It appeared that SGAs efforts to obtain information from the
Department drove the briefing schedule for the other committees.
SSCI
HPSCI
SGA
HGRO
5/16/96
5/16/96
2/27/97
7/24/97
3/6/97
1/31/97
3/6/97
9/22 or 9/23/97
3/14/97
5/1/97
3/25/97
11/14/97
4/23/97
9/23/97
5/5/97
12/4/97
9/10/97
11/7/97
7/14/97
3/4/98
9/22 or 9/23/97
12/4/97
7/28/97
11/7/97
9/11/97
12/4/97
9/23 or 9/24/97
11/7/97
12/4/97
According to Director Freeh, he and the Attorney General met with
Senator Thompson soon after SGA began its investigation. They explained to the Chairman
that they would seek to find a means by which the FBI and Main Justice could provide
information to SGA to support its oversight function while continuing to protect grand
jury information and the integrity of the criminal investigation. Director Freeh said he
and the Attorney General also told Senator Thompson that if the Department obtained
evidence of a crime that was important to national security, such as clear evidence that
the PRC plan influenced the Presidential election, it would consider providing that
information to SGA. Notwithstanding this discussion, a protocol for providing information
to SGA was never worked out to the committees satisfaction.
Discovery of the Undisseminated Intelligence Information After the September
10 and 11, 1997 briefings to SSCI and SGA, Director Freeh directed NSD to review its files
to ascertain why the two pieces of FBI intelligence information that had been briefed to
those committees by the CIA had not been disseminated to senior FBI officials. In
addition, NSDs file review was intended to ascertain whether there was any
additional information that should have been provided to Congress. That review and
subsequent searches turned up another eight pieces of information in NSDs files that
are the subject of the OIG investigation. In November 1997, these 10 pieces of information
were provided to the Task Force, Main Justice officials, Congress, and the NSC.
Tracking the Dissemination of InformationThe OIG report provides an exhaustive
account of how each of the 10 pieces of information that the FBI determined had not been
properly disseminated were handled within the Department. We tracked each of those pieces
of intelligence information through the Department to determine who had access to it and
when. We accounted for every opportunity that Department personnel had to learn of this
information, regardless of whether it was disseminated using an appropriate means. The
chart below provides a pared-down account of the reports findings about Department
officials access to the 10 pieces of information, which are identified only by
number. The notations in the columns represent each time a particular Department official
or component had access to one of the 10 pieces of intelligence information.
NSD
Director Freeh and/or Sr. FBI Officials
Attorney
General and/or Sr. Main Justice Officials
Task Force
INTELLIGENCE INFORMATION #1
Late 1995 FBI Teletype.
5/97 OIPR/OPR Report.
AG: 2/97 FBI Teletype
Packet; 5/97 OIPR/OPR Report. DAG: 2/97 FBI
Teletype Packet; 2/97 OIPR Memo; 5/97 OIPR/OPR Report.
2/97 FBI Teletype Packet; 2/97
OIPR Memo.
INTELLIGENCE INFORMATION #2
Early 1997 FBI Teletype;
1996-1997 OIPR Documents.
Freeh: 1996-1997 OIPR
Documents.
1996-1997 OIPR Documents.
INTELLIGENCE INFORMATION #3
Late 1996 FBI Teletype.
Freeh: 1/97
Directors Note; 2/97 Briefing.Sr. Officials:
Late 1996 FBI Teletype; 1/10/97, 1/13/97, 2/97 Briefings; 1/97 Directors Note.
AG: Early 1/97 discussion
w/ Dept. official; 2/97 FBI Teletype Packet.DAG:
2/97 FBI Teletype Packet; 2/97 OIPR Memo.
Other Sr. Officials: 1/13/97 Briefing; 2/97 FBI
Teletype Packet; 2/97 OIPR Memo.
Late 1996 FBI Teletype; 1/13/97
Briefing; 2/97 FBI Teletype Packet; 2/97 OIPR Memo.
INTELLIGENCE INFORMATION #4
1 Early 1995, 3 Late 1996, and 2
Early 1997 FBI Teletypes.
Freeh: 4/23/97 SSCI
Briefing.Sr. Officials: 2/97 and 6/97 LHMs.
AG: 2/97 FBI Teletype
Packet; 4/23/97 SSCI Briefing; 7/97 LHMDAG:
2/97 FBI Teletype Packet; 2/97 OIPR Memo.
Other Sr. Officials: 2/97 Teletype Packet; 2/97 OIPR
Memo.
2/97 FBI Teletype Packet; 2/97
OIPR Memo; 2/97 and 6/97 LHMs.
INTELLIGENCE INFORMATION #5
#5A
Mid-1997 FBI Teletype.
Sr. Officials: 8/97 LHM.
AG: 9/97 LHM.
8/97 LHM.
#5B
Early 1997 and Mid-1997 FBI
Teletypes.
INTELLIGENCE INFORMATION #6
Early 1997 and Mid-1997 FBI
Teletypes.
INTELLIGENCE INFORMATION #7
Early 1997 and Mid-1997 FBI
Teletypes.
Sr. Officials: 10/97 LHM.
AG: 10/97 LHM.
10/97 LHM.
INTELLIGENCE INFORMATION #8
12/96, 4/97, 5/97 Intelligence
Agency Reports; Mid-1997 FBI Teletype.
3/97 and 8/97 Directors
Notes.
4/97 OIPR Memo.
INTELLIGENCE INFORMATION #9
Mid-1997 and Late 1997 FBI ECs;
10/97 contact w/ FBI Field Office #1.
Sr. Officials: 10/97 LHM.
AG: 10/97 LHM.
10/97 LHM.
INTELLIGENCE INFORMATION #10
#10A
Early 1997 EC on Database Search;
10/97 contact w/ FBI Field Office #1.
AG: 7/97 LHM
7/97 LHM; 9/97 FBI Field Office #1
File Review.
#10B
7/97 FBI Closing Memo; 10/97
contact w/ FBI Field Office #1.
9/97 FBI Field Office #1 File
Review.
#10C
6/92 FBI Memo; 7/97 FBI Closing
Memo; 10/97 contact w/ FBI Field Office #1.
9/97 FBI Field Office #1 File
Review.
#10D
Early 1995 FBI Teletype;
1995-1996 OIPR Documents; 7/97 FBI Closing Memo; 10/97 contact w/ FBI Field Office #1.
Freeh: 1995-1996 OIPR
Documents.
1995-1996 OIPR Documents.
9/97 FBI Field Office #1 File
Review.
#10E
10/97 contact w/ FBI Field Office
#1.
9/97 FBI Field Office #1 File
Review.
Analysis and Recommendations As outlined above, we found that much of the
information that was the focus of the OIG investigation was previously given to senior
Department officials before being re-discovered in late 1997. However, in many
cases the officials access to the information was haphazard. In many cases, the fact
that the information was provided by happenstance meant that senior officials were unaware
that they had ever received it. With few exceptions, the dissemination problems the OIG
found were not attributable to any single cause. Rather, they appear to have resulted from
the confluence of multiple factors. We found that many of the problems we uncovered were
avoidable and could have been minimized or eliminated if the appropriate efforts had been
made. Others were the result of faulty Department practices that increased the likelihood
of such problems occurring. A summary of our findings and recommendations follows.
Issues Related to Dissemination to Senior FBI OfficialsOur
investigation revealed that poor judgment exercised by certain NSD personnel concerning
the dissemination of information was a factor in the breakdown in the flow of intelligence
information within the FBI. However, there were many other factors that also contributed
to the dissemination problems the FBI experienced in this matter.
Poor Communication and Dissension Within NSD Affected the Dissemination of InformationBeginning
in mid-1997, Director Freeh gave special instructions to NSD officials regarding what
information he wanted to receive from NSDs PRC-related intelligence investigation,
directing that he be briefed on information from that investigation that otherwise would
not have been briefed to his level, including information of doubtful or unknown
reliability. Similarly, NSD officials issued instructions to NSD personnel regarding what
information they wanted to receive from that investigation. Although Director Freeh and
NSD officials may have believed that their instructions were clearly communicated, there
was in fact no uniform understanding within the FBI chain-of-command as to what
information needed to be shared with them. It is unclear whether Director Freehs and
NSD officials instructions were too vague, miscommunicated, or simply misunderstood.
In addition to NSDs problems in disseminating information up the chain in a
timely manner, we also found that NSD did not disseminate information in a consistent
manner. NSD operational personnel at times ignored or contradicted analysts
evaluation of information, creating situations in which the import of intelligence
information was the subject of disagreement within NSD. For example, there was
disagreement within NSD over the characterization of certain individuals as PRC agents,
and this disagreement prompted NSD to send mixed messages in its dissemination of
information about these alleged agents. Even as the FBI began to distance itself from such
characterizations in congressional testimony, it was continuing to make statements in
documents concerning the FBIs intelligence investigations that were ambiguous and
could have been interpreted as claiming that an individual was indeed a PRC agent. Poor
coordination early in the investigation between different units of NSD also contributed to
dissemination problems, although such problems improved by mid-1997.
NSD Was Unduly Reluctant to Disseminate Intelligence Information Outside of NSDNSD
exhibited undue reluctance to disseminate intelligence information outside of the
division. In regard to dissemination to the Task Force, many NSD personnel cited concerns
about jeopardizing intelligence sources and methods. Others explained that their
reservations were prompted in part by the strictures of Departmental guidelines governing
intelligence-sharing. While both of these constitute legitimate reasons for NSD to be
cautious about sharing its intelligence information, these concerns needed to be balanced
against countervailing concerns, such as the Task Forces need for the intelligence
information to conduct its investigation and the Attorney Generals need to have
intelligence information related to congressional inquiries. We concluded that NSD did not
strike an appropriate balance between its needs and those of the Task Force and Main
Justice. We suggest that the Criminal Division, OIPR, and the FBI resolve the issue of
their conflicting understandings of the Departmental guidelines concerning
intelligence-sharing, and that the guidelines be amended accordingly. We also recommend
that the FBI publish guidance to its agents explaining the guidelines and underscoring the
need to adhere to them.
The FBI Needs to Improve Its Capacity to Create and Disseminate Finished
Intelligence in a Timely FashionMisunderstandings over the interpretation of raw
intelligence material that NSD disseminated to senior FBI and Main Justice officials
contributed to problems in this case. Indeed, at times NSD personnel and senior FBI and
Main Justice officials had dramatically different impressions about the importance of such
information. We do not believe that NSD should generally disseminate raw and unevaluated
intelligence within the Department. We believe that it is often difficult for senior FBI
and Main Justice officials to interpret intelligence information without being given the
proper context for the information and without the analysis of capable intelligence
analysts. The circulation of a "finished" intelligence product (i.e., one
that has been subjected to analysis and contains corroborated information) will also
ensure that only information that meets some standard of reliability is disseminated by
NSD, thereby reducing or eliminating misinterpretation of or overreaction to unreliable
reporting. The FBI should hone its capacity for producing finished intelligence reporting
so that it can quickly provide policymakers in the Department with a product that is
intelligible and that contains NSDs collective and definitive analysis of the
information. The FBI has apparently already begun working on such an effort.
The Global Security Sections Responsibilities Were OverwhelmingNSDs
Global Security Section handled all of the information generated in connection with
NSDs PRC-related intelligence investigation. The Section Chief of the Global
Security Section appeared to bear a tremendous amount of responsibility, perhaps too much
for a single position. This may have hampered the ability of the Section Chief to closely
monitor events in that investigation. The Global Security Sections responsibilities
relate to numerous counter-intelligence issues involving a large number of countries. In
addition, the amount of information that had to be processed and converted into LHMs by a
single unit within the Global Security Section was immense and overwhelmed that unit. We
urge the FBI to consider whether its current apportionment of responsibility among the
sections comprising NSD places a reasonable burden on the Global Security Section Chief
and upon the personnel working under that Section Chief.
There Was Apparent Disparity Between Information That Was Provided to Congress and
Information Used to Justify Intelligence OperationsAs late as December 1997,
information in documents prepared by the FBI that the Department used to justify certain
intelligence activities was inconsistent with information that the Department briefed to
Congress. These documents, which were drafted by the FBI and OIPR, characterized a certain
individual as an agent. Yet, the FBI told HGRO, SGA, SSCI, and HPSCI that the
same individual was not in fact an agent. We recommend that the FBI take
action to correct any misimpression fostered by the manner in which it characterized this
individual. To avoid this problem in the future, we suggest that similar information that
is provided to Congress  or any other entity outside the Department  be
coordinated with the appropriate components of the Department.
Issues Related to Dissemination to Senior Main Justice OfficialsThere was
considerable confusion among OIPR, the Task Force, and the FBI over who was responsible
for disseminating PRC-related intelligence information to senior Main Justice officials
and the Attorney General. We believe the Task Force was principally responsible for
disseminating intelligence information related to its criminal investigation. The Task
Force made such disseminations principally by making the LHMs it received from NSD
available to senior Main Justice officials and the Attorney General. We believe the FBI
was responsible for disseminating intelligence information on the PRC that was unrelated
to the Task Force investigation. To the extent that it did so, it did so through the
documents it sent to OIPR.
Lines of Authority and Reporting Need to Be Better DelineatedThere was a notable lack
of understanding among the representatives of OIPR, the Criminal Division, the FBI and the
Task Force concerning their respective roles in the dissemination of intelligence
information. A Departmental components mission should define the scope of its
responsibilities. However, in the context of the Departments intelligence functions,
there are overlapping roles that blur lines of responsibility. Because of confusion over
who bore the responsibility for briefing certain information, no one marshaled the
information and took responsibility for reporting it within Main Justice. However, the
Task Force provided intelligence information related to its investigation to the Attorney
General and Main Justice officials through dissemination of the LHMs it received from NSD.
The missions of OIPR, the Criminal Division, and the FBI regarding intelligence
operations and dissemination of intelligence information to the Attorney General should be
better defined. Their interlocking and overlapping responsibilities in regard to criminal
and intelligence information should be more clearly delineated.
No Component of Main Justice Has Access to NSDs Intelligence InformationMain
Justice currently does not possess a reliable and routine means of keeping apprised of
NSDs intelligence operations and information. To the extent that information is
provided to Main Justice, it is either provided on an ad hoc basis or through
sketchy information contained in FISA applications and annual memoranda that serve as the
basis for NSDs ongoing intelligence investigations of U.S. persons. The Department
must decide whether it is advisable to make the FBI singularly responsible for
disseminating intelligence information to senior Main Justice officials or whether instead
a Main Justice component should have greater access to NSDs intelligence, thereby
creating the capability in a Main Justice component to keep the Attorney General
adequately informed about the FBI's intelligence matters. In keeping with its mission,
OIPR is the logical Main Justice component to assume a greater role in obtaining
intelligence from NSD.
Issues Related to Dissemination to the Task ForceNSD instituted certain
measures, such as the use of LHMs, to protect the sources and methods used to gather the
intelligence information that was being disseminated to the Task Force. NSDs
reluctance to provide raw intelligence information to the Task Force was also the product
of OIPRs aggressive criticism of NSDs FISA intelligence-sharing practices in
past criminal cases. While NSDs efforts to protect its sources and methods were made
in good faith, NSDs actions were predicated in part on a misunderstanding of the law
and Departmental policy governing intelligence-sharing and were focused too much upon
protecting sources and methods.
Poor Communication and NSDs Intransigence Hampered the Task Forces Access to
Intelligence Poor communication between NSD and the Task Force and NSDs
intransigence stymied the Task Forces efforts to obtain access to NSDs Foreign
Counterintelligence case files. While the Task Force raised complaints to the FBI Deputy
Directors level about its limited access to the intelligence information, the
problem persisted and was not resolved until the Attorney General directed in September
1997 that the Task Force would receive access to the intelligence information.
LHMs Should Not Be Used to Disseminate Large Quantities of Intelligence Information to a
Criminal InvestigationThe use of LHMs prevented the Task Forces criminal
prosecutors and investigators from having access to the raw intelligence material, which
hampered their ability to assess the importance of the intelligence information in
NSDs possession. The fact that the Task Force was reduced to reviewing LHMs instead
of the raw material was also undesirable because of occasional errors in the system: at
least some of the LHMs created by NSD were never received by the Task Force; others
contained incomplete information.
The LHM system was a flawed means of disseminating information to the Task Force. While
the LHM system may have protected NSDs sources and methods, it was an extremely
labor-intensive and cumbersome method of providing the information. In lieu of LHMs, the
system instituted by NSD and the Task Force in late 1997 after LHMs were abandoned should
be used in any similar investigation. Task Force agents and prosecutors can review the raw
intelligence material in unredacted form in NSDs offices and obtain a redacted copy
for Task Force files.
The Task Force Should Have Been More Familiar with the FBIs DatabasesWe found
that the Task Forces initial understanding of the FBIs information-management
capabilities did not allow it to fully appreciate how to use the FBIs databases to
best effect. This problem was ameliorated later when program analysts began working
directly with the Task Force. We recommend that any task force that is using the
FBIs databases obtain at least a basic appreciation of the various search strategies
used to retrieve data from the databases and have direct access to analysts to formulate
its searches.
Issues Related to FBI DatabasesThe Task Force and NSD used the FBIs
Automated Case Support system (ACS) and other databases to obtain information on the
individuals and organizations that had become subjects of the Task Force investigation.
However, problems in the way information was entered or searched in the databases, and the
way that search results were handled within the FBI, resulted in incomplete data being
provided to the Task Force.
FBI Practices and Policy Have Handicapped the Usefulness of the FBIs Databases We
found that many of the documents that were discovered in late 1997 regarding two key
subjects of the Task Force investigation could not have been found using the FBIs
databases. Indeed, because of the FBIs failure to enter information into its
databases in a manner that would take advantage of the databases search capabilities
 or in some cases its failure to enter information at all  some of the crucial
information about these individuals ties to the PRC was irretrievable. The
FBIs procedures for culling information from its teletypes and electronic
communications and inputting it into its databases essentially make it impossible for the
FBI to state with confidence that a database search has yielded all information in the
FBIs files about a particular subject. The problems we found with the databases are
engendered by certain FBI administrative regulations that allow agents to forego entering
important investigative information into the system. We recommend that the FBI amend its
practices and regulations so that more, rather than less, information is entered into its
computer databases.
Renewed and Improved Training on ACS Is Needed for AgentsMany of the FBI personnel we
interviewed were not well versed in the use of the FBIs database systems. They also
harbored beliefs about the ACS system, such as that information in ACS is not secure from
unauthorized access, which have prompted agents to forego entering information into the
system. We believe that supplementary training for agents, who are principally responsible
for the information that is entered into ACS, is crucial to the integrity and utility of
the ACS system.
Foreign Names Caused DifficultyWe found that confusion over Chinese names  in
particular, difficulty in determining which name was an individuals surname 
contributed to problems with the name searches performed for the Task Force. It is
important for the FBI to ensure that its database operators are conversant with the format
of foreign names and that they search the databases in a manner that will take into
account errors that may have been made entering the foreign names into the system.
Issues Related to Dissemination to Congress and NSCThroughout the Task Force
investigation, Main Justice and the FBI have sought to balance their competing obligations
to provide intelligence information to policymakers and to protect the criminal
investigation. Department officials described this as a delicate, deliberative process in
which the Department struggled to address the needs of the congressional committees and
NSC while avoiding doing anything to compromise the criminal case. Department officials
were no doubt well-intentioned in this regard, and they did try to set up procedures for
reviewing proposed congressional or NSC briefings that would ensure that the criminal
investigation would be protected. However, the Departments briefing practices in
this case were problematic in a number of respects.
There Is Lingering Disagreement Between the FBI and Main Justice Concerning the Briefing
of the NSC Throughout the Task Force investigation, the FBI and Main Justice have
disagreed over whether to brief the NSC on matters related to the intelligence and Task
Force investigations. Because of the FBIs concerns about briefing the NSC regarding
the criminal investigation  concerns motivated both by the desire to protect the
integrity of the criminal investigation and by fear of the potential political fallout
from such a briefing  FBI representatives have not attended NSC briefings related to
the intelligence or Task Force investigations. We recommend that the FBIs
appropriate role in such NSC briefings be discussed and agreed upon by senior Main Justice
and FBI officials.
The Department Abandoned Previous Standards for Briefing Congress and the NSC During the
Task Force InvestigationPast Departmental practices and policies for briefing Congress
and the NSC were either abandoned or severely amended in the context of the intelligence
and Task Force investigations. In order to satisfy the committees demands for
information, and because the Department was concerned about being accused of withholding
relevant information from the committees, the Department adopted a policy of briefing the
committees, and later the NSC, on information of unknown reliability rather than waiting
until that information could be corroborated. The Department also departed from its
bright-line standard of resisting requests to share information about pending criminal
investigations.
There appeared to have been some initial confusion within the Department regarding the
standard for determining what intelligence information would be briefed to Congress, since
the information that was briefed at different points during 1997 did not conform to a
consistent standard. Moreover, FBI and Main Justice officials failed to explain in a clear
or consistent manner to the congressional committees  in particular to SGA 
the standard that was being used. This contributed to the congressional committees
confusion over the type of intelligence information they could obtain and exacerbated
SGAs frustrations over the amount of information it was receiving from the
Department.
The handling of information related to the intelligence and Task Force investigations
may undermine the Departments ability to adhere to its more restrictive practices in
the future, which is troubling because some of these restrictive practices were instituted
to protect the integrity of investigations and the rights of those under investigation.
Department officials need to establish a clear policy regarding standards for briefing
Congress and the NSC on intelligence information.
The Department also needs to promulgate standards for determining when information
relating to criminal investigations may be briefed to Congress or the NSC. If the
Department deviates from a bright-line policy of not commenting on pending criminal
investigations and does not promulgate guidelines concerning such comment, it creates
perilous circumstances for officials who conduct congressional briefings.
The Department Needs to Improve Its Record-keeping for Congressional and NSC BriefingsWe
found that in contravention of FBI regulations and directives, the FBI lacks any
organized, complete record of its congressional briefings related to the intelligence and
Task Force investigations or the materials used for these briefings. The records
memorializing what was briefed by the FBI are inadequate and no records exist at all of
questions asked and responses provided during briefings. Main Justice records were no
better. There should always be some record of the content and occurrence of these
briefings, because the information that was conveyed to Congress or the NSC may later
become important, as it did in March 1997, when the White House claimed that the FBI had
instructed NSC staff not to tell their superiors about the PRC plan.
Conclusion When information from NSDs intelligence investigation
appeared to become relevant to the Task Forces investigation in late 1996, the
Department was forced to confront the difficult issue of providing criminal investigators
conducting a high profile, politically charged investigation with sensitive intelligence
information. In addition to deciding how to use and disseminate intelligence information
within the Department, Department policymakers also had to contend with Congress
demand for information about both the criminal and intelligence investigations.
Furthermore, the belief among some Department officials that the White House was a subject
of the criminal investigation  at least in regard to allegations concerning illegal
foreign campaign donations  prompted them to argue that the Department should not
provide the NSC with information from the intelligence investigation, notwithstanding the
fact that the PRCs actions presented potential national security concerns. None of
these issues was simple and, as demonstrated in the OIGs report, the Department
addressed each of these issues with varying degrees of success.
We have concluded that no single individual or decision is responsible for the array of
problems that we found. Rather, the shortcomings in the Departments handling of the
intelligence information had multiple causes spanning from the exercise of poor judgment
to counterproductive institutional practices. Unless changes are made to address the broad
spectrum of problems that we found, the difficulty that the Department experienced
handling the materials in the intelligence and Task Force investigations will persist.
The OIG report includes recommendations that we believe will help prevent the
reoccurrence of the problems we found. However, such recommendations will only prove
effective in the future through the good-faith, cooperative efforts of the individuals and
entities within Main Justice and the FBI. Indeed, such efforts could have prevented many
of the problems that arose between the Task Force and NSD and between Main Justice and the
FBI. The OIG is committed to assisting the Department in resolving these issues.
_____________________________
Michael R. Bromwich
Inspector General
July 14, 1999
Special Investigative Counsel
Leonard E. Bailey
Jason M. Weinstein
OIG Investigative Team
Ann Ihnat Prentice
William F. Johnson
Cynthia A. McGrory
Kimberly A. Thomas
1 These two pieces of information are referred to as
INTELLIGENCE INFORMATION #1 and INTELLIGENCE INFORMATION #2 in the
chart that appears on pages 11-12.